Department of Homeland Security
   Ofﬁce of Inspector General

            Information Technology Management 
 

                Letter for the Immigration and 
 

            Customs Enforcement Component of 
 

            the FY 2010 DHS Financial Statement 
 

                             Audit
 





OIG-11-70                                             April 2011
                                                                               Office of Inspector General

                                                                    U.S. Department ofHomeland Security
                                                                                  Washington, DC 25028




                                                            Homeland
                                                            Security
                                  APR 072011

                                            Preface

The Department of Homeland Security (DHS) Office of Inspector General (DIG) was established
by the Homeland Security Act 0/2002 (Public Law 107-296) by amendment to the Inspector
General Act 0/1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the department.

This report presents the information technology (IT) management letter for the FY 2010
Immigration and Customs Enforcement (ICE) component of the DHS financial statement audit
as of September 30, 2010. It contains observations and recommendations related to information
technology internal control that were summarized in the Independent Auditors' Report dated
November 12,2010 and presents the separate restricted distribution report mentioned in that
report. The independent accounting firm KPMG LLP (KPMG) performed the audit procedures
at the ICE component in support of the DHS FY 2010 financial statements and prepared this IT
management letter. KPMG is responsible for the attached IT management letter dated March 1,
2011, and the conclusions expressed in it. We do not express opinions on DHS' financial
statements or internal control or conclusion on compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                   ~ Assistant Inspector General
                                     Office of Information Technology Audits
                                   KPMG LLP
                                   2001 M Street, NW
                                   Washington, DC 20036


March 1, 2011

Inspector General
U.S. Department of Homeland Security

Chief Information Officer and
Chief Financial Officer
Immigration and Customs Enforcement

Ladies and Gentlemen:
We were engaged to audit the balance sheet of the U.S. Department of Homeland Security (DHS or
Department), as of September 30, 2010 and the related statement of custodial activity for the year then
ended (herein after referred to as “financial statements”). We were also engaged to examine the
Department’s internal control over financial reporting of the balance sheet as of September 30, 2010 and
the statement of custodial activity for the year then ended. We were not engaged to audit the statements
of net cost, changes in net position, and budgetary resources as of September 30, 2010 (hereinafter
referred to as “other fiscal year (FY) 2010 financial statements”), or to examine internal control over
financial reporting over the other FY 2010 financial statements.
Because of matters discussed in our Independent Auditors’ Report, dated November 12, 2010, the scope
of our work was not sufficient to enable us to express, and we did not express, an opinion on the financial
statements or on the effectiveness of DHS’ internal control over financial reporting of the balance sheet as
of September 30, 2010, and related statement of custodial activity for the year then ended. Additional
deficiencies in internal control over financial reporting, potentially including additional material
weaknesses and significant deficiencies, may have been identified and reported had we been able to
perform all procedures necessary to express an opinion on the financial statements or on the effectiveness
of DHS’ internal control over financial reporting of the balance sheet as of September 30, 2010, and
related statement of custodial activity for the year then ended; and had we been engaged to audit the other
FY 2010 financial statements, and to examine internal control over financial reporting over the other FY
2010 financial statements.
A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and correct
misstatements on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to merit
attention by those charged with governance. A material weakness is a deficiency, or a combination of
deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.
Immigration and Customs Enforcement (ICE), is a component of DHS. During our audit engagement, we
noted certain matters in the areas of information technology (IT) configuration management, access
controls, security management, and segregation of duties with respect to ICE’s financial systems
information technology (IT) general controls, which we believe contribute to an IT material weakness at
the DHS level. These matters are described in the IT General Control Findings and Recommendations
section of this letter.




                Information Technology Management Letter for the ICE Component
                          of the FY 2010 DHS Financial Statement Audit
                                    KPMG LLP is a Delaware limited liability partnership,
                                    the U.S. member firm of KPMG International Cooperative
                                    (“KPMG International”), a Swiss entity.
The material weakness described above is presented in our Independent Auditors’ Report, dated
November 12, 2010. This letter represents the separate limited distribution letter mentioned in that report.
The control deficiencies described herein have been discussed with the appropriate members of
management, and communicated through a Notice of Finding and Recommendation (NFR).
Because of its inherent limitations, internal control over financial reporting may not prevent, or detect and
correct misstatements. Also, projections of any evaluation of effectiveness to future periods are subject to
the risk that controls may become inadequate because of changes in conditions, or that the degree of
compliance with the policies or procedures may deteriorate. We aim to use our knowledge of ICE gained
during our audit engagement to make comments and suggestions that are intended to improve internal
control over financial reporting or result in other operating efficiencies. We have not considered internal
control since the date of our Independent Auditors’ Report.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key ICE financial systems and IT infrastructure within the scope of our engagement to
audit the FY 2010 DHS financial statements in Appendix A; a description of each internal control finding
in Appendix B; and the current status of the prior year NFRs in Appendix C. Our comments related to
certain additional matters have been presented in a separate letter to the Office of Inspector General and
the ICE Chief Financial Officer.

ICE’s written response to our comments and recommendations has not been subjected to auditing
procedures and, accordingly, we express no opinion on it.

This communication is intended solely for the information and use of DHS and ICE management, DHS
Office of Inspector General, OMB, U.S. Government Accountability Office, and the U.S. Congress, and
is not intended to be and should not be used by anyone other than these specified parties.

Very truly yours,




                Information Technology Management Letter for the ICE Component
                          of the FY 2010 DHS Financial Statement Audit
                                Department of Homeland Security
 

                             Immigration and Customs Enforcement 
 

                            Information Technology Management Letter
                                       September 30, 2010




             INFORMATION TECHNOLOGY MANAGEMENT LETTER
                                       TABLE OF CONTENTS
                                                                                                     Page

Objective, Scope, and Approach                                                                        1



Summary of Findings and Recommendations                                                               2



IT General Control Findings and Recommendations 

  Configuration Management                                                                            3


  Access Control                                                                                      3


  Security Management                                                                                 3


       After-Hours Physical Security Testing                                                          4


       Social Engineering Testing                                                                     4


  Segregation of Duties                                                                               4


Application Controls                                                                                  6


Management’s Comments and OIG Response                                                                6


                                             APPENDICES

Appendix    Subject                                                                                  Page 

   A        Description of Key ICE Financial Systems and IT Infrastructure within the Scope of the    7

            FY 2010 DHS Financial Statement Audit Engagement

   B        FY 2010 Notices of IT Findings and Recommendations at ICE                                 9

                •     Notice of Findings and Recommendations – Definition of Severity Ratings         10 

   C        Status of Prior Year Notices of Findings and Recommendations and Comparison to            20 

            Current Year Notices of Findings and Recommendations at ICE

   D        Management Response                                                                       22 





           Information Technology Management Letter for the ICE Component of the 
 

                           FY 2010 DHS Financial Statement Audit 
 

                                 Department of Homeland Security
 

                              Immigration and Customs Enforcement 
 

                             Information Technology Management Letter
                                        September 30, 2010


                            OBJECTIVE, SCOPE, AND APPROACH

In connection with our engagement to audit DHS’ balance sheet as of September 30, 2010 and the related
statement of custodial activity for the year then ended, we performed an evaluation of information
technology general controls (ITGC) at ICE, to assist in planning and performing our audit. The Federal
Information System Controls Audit Manual (FISCAM), issued by the Government Accountability Office
(GAO), formed the basis of our ITGC evaluation procedures. The scope of the ITGC evaluation is further
described in Appendix A.
FISCAM was designed to inform financial auditors about IT controls and related audit concerns to assist
them in planning their audit work and to integrate the work of auditors with other aspects of the financial
audit. FISCAM also provides guidance to IT auditors when considering the scope and extent of review
that generally should be performed when evaluating general controls and the IT environment of a federal
agency. FISCAM defines the following five control functions to be essential to the effective operation of
the general IT controls environment.
•	 Security Management (SM) – Controls that provide a framework and continuing cycle of activity for
   managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
   of computer-related security controls.
•	 Access Control (AC) – Controls that limit or detect access to computer resources (data, programs,
   equipment, and facilities) and protect against unauthorized modification, loss, and disclosure.
•	 Configuration Management (CM) – Controls that help to prevent unauthorized changes to information
   system resources (software programs and hardware configurations) and provides reasonable assurance
   that systems are configured and operating securely and as intended.
•	 Segregation of duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to manage who can control key aspects of computer-related operations.
•	 Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.
To complement our general IT controls audit procedures, we also performed technical security testing for
key network and system devices, as well as testing over key financial application controls in the ICE
environment. The technical security testing was performed both over the Internet and from within select
ICE facilities, and focused on test, development, and production devices that directly support key general
support systems.




                Information Technology Management Letter for the ICE Component 
 

                          of the FY 2010 DHS Financial Statement Audit 
 

                                            Page 1 
 

                                Department of Homeland Security
 

                             Immigration and Customs Enforcement 
 

                            Information Technology Management Letter
                                       September 30, 2010




                  SUMMARY OF FINDINGS AND RECOMMENDATIONS

During fiscal year (FY) 2010, ICE took corrective action to address some prior year IT control
weaknesses. For example, ICE made improvements over physical controls at facility entrances, and
Active Directory Exchange (ADEX) user account lockout settings and recertifications. However, during
FY 2010, we continued to identify IT general control weaknesses that could potentially impact ICE’s
financial data. The most significant findings from a financial statement audit perspective were related to
the Federal Financial Management System (FFMS) configuration and patch management, FFMS user
account management, and weaknesses over physical security and security awareness. Collectively, the IT
control deficiencies limited ICE’s ability to ensure that critical financial and operational data were
maintained in such a manner to ensure confidentiality, integrity, and availability. In addition, these
control deficiencies negatively impacted the internal controls over ICE financial reporting and its
operation and we consider them to contribute to a material weakness at the Department level under
standards established by the American Institute of Certified Public Accountants (AICPA). In addition,
based upon the results of our test work, we noted that ICE did not fully comply with the requirements of
the Federal Financial Management Improvement Act (FFMIA).
Of the 16 findings identified during our FY 2010 testing, 9 were new IT findings. These findings
represent control deficiencies in four of the five FISCAM key control areas: configuration management,
access controls, security management, and segregation of duties. Specifically, these control deficiencies
include: 1) inadequately designed and operating configuration management, 2) lack of effective
segregation of duties controls within financial applications, 3) lack of FFMS patch management, and 4)
weak FFMS account management. These control deficiencies may increase the risk that the
confidentiality, integrity, and availability of system controls and ICE financial data could be exploited
thereby compromising the integrity of financial data used by management as reported in DHS’
consolidated financial statements. While the recommendations made by KPMG should be considered by
ICE, it is the ultimate responsibility of ICE management to determine the most appropriate method(s) for
addressing the weaknesses identified based on their system capabilities and available resources.




                Information Technology Management Letter for the ICE Component 
 

                          of the FY 2010 DHS Financial Statement Audit 
 

                                            Page 2 
 

                                 Department of Homeland Security
 

                              Immigration and Customs Enforcement 
 

                             Information Technology Management Letter
                                        September 30, 2010




             IT GENERAL CONTROL FINDINGS AND RECOMMENDATIONS

Findings:
During the FY 2010 DHS Financial Statement Audit, we identified the following ICE IT and financial
system control deficiencies that in the aggregate significantly contribute to the material weakness at the
Department level.

Configuration Management
•	 Security configuration management control deficiencies on ADEX. These control deficiencies
   included default installation and configuration settings on the Cisco routers.
•	 Security configuration management over FFMS included:
   - Network and servers were installed with default configuration settings and protocols.
   - Mainframe production databases were installed and configured without baseline security
       configurations. 
 

   - Servers have inadequate patch management. 
 


Access Control
•	   FFMS password settings are not compliant with DHS policy.
•	   A lack of recertification of FFMS system users.
•	   Audit log policies and procedures have not been finalized, approved, and implemented.
•	   ADEX system access was not consistently removed for terminated employees and contractors.
•	   Weak physical and environmental controls at the ADEX and FFMS datacenters:
     -	 Department of Commerce Office of Computer Services (OCS) (up to July 2010)
             -	 Lack of OCS Data Center risk assessment.
             -	 Lack of re-entry procedures for personnel after an emergency evacuation.
             -	 Fire suppression testing documentation is not maintained.
             -	 Water damage was visible on the data center wall where FFMS servers are housed with
                  no incident report of the event.
             -	 Uninterruptible Power Supply (UPS) testing documentation is not maintained.
     -	 Clarksville Data Center (DC2) (as of July 2010)
             -	 Emergency re-entry procedures have not been documented and authorized.
             -	 FFMS server is inappropriately marked with a label that identifies the application/data on
                  the server. 
 

     - Potomac Center North (PCN) 
 

             - Environmental test results are not documented and maintained for the Heating, 
 

                  Ventilating, Air Conditioning (HVAC), fire extinguishers, and the UPS. 
 


Security Management
•	 Procedures for transferred and terminated personnel exit processing are not being consistently
   followed.
•	 IT Security training is not mandatory nor is compliance monitored.

                 Information Technology Management Letter for the ICE Component 
 

                           of the FY 2010 DHS Financial Statement Audit 
 

                                             Page 3 
 

                                  Department of Homeland Security
 

                               Immigration and Customs Enforcement 
 

                              Information Technology Management Letter
                                         September 30, 2010




After-Hours Physical Security Testing:
We performed after-hours physical security testing to identify risks related to non-technical aspects of IT
security. These non-technical IT security aspects included physical access to media and equipment that
housed financial data and information residing within a ICE employee’s or contractor’s work area, which
could be used by others to gain unauthorized access to systems housing financial information. The testing
was performed at various ICE locations that process and/or maintain financial data. The specific results
are listed as shown in the following table:
                                                   Total Exceptions by Type                Total
                                         TechWorld 10th        PCN            PCN        Exceptions
      Exceptions Noted                       floor           3rd floor      4th floor     by Type
      User Name and Passwords                  13                6             13            32
      Keys/Badges                              1                 0              0             1
      Personally Identifiable                  9                 2              2            13
      Information (PII)
      Server Names/IP Addresses                1                0              2             3
      Laptops                                  2                2              1             5
      External Drives                          0                0              1             1
      Credit Cards                             2                0              0             2
      Internal Drive                           1                0              1             2
      Total Exceptions by Location             29               10             20            59


Social Engineering Testing:
Social engineering is defined as the act of attempting to manipulate or deceive individuals into taking
action that is inconsistent with DHS policies, such as divulging sensitive information or allowing /
enabling computer system access. The term typically applies to deception for the purpose of information
gathering, or gaining computer system access, as shown in the following table:
        Total          Total         Number of people who provided a username and/or password
        Called       Answered
         25             14           1 – Both User Name and Password

Segregation of Duties
•	 FFMS roles and responsibilities for the Originator, Funds Certification Official, and Approving
   Official profiles were not effectively segregated.

Recommendations:
We recommend that the ICE Chief Information Officer and Chief Financial Officer, in coordination with
the DHS Office of Chief Financial Officer and the DHS Office of the Chief Information Officer, make the
following improvements to ICE’s financial management systems and associated information technology
security program.

For Configuration Management

                 Information Technology Management Letter for the ICE Component 
 

                           of the FY 2010 DHS Financial Statement Audit 
 

                                             Page 4 
 

                                Department of Homeland Security
 

                             Immigration and Customs Enforcement 
 

                            Information Technology Management Letter
                                       September 30, 2010


•	 Ensure that password configuration settings are properly and effectively applied.
•	 Implement the appropriate FFMS database and network server patches in order to ensure patch
   management compliance.

For Access Controls
•	 Update the FFMS password configuration settings to ensure that they are in compliance with DHS
   4300A policies.
•	 Establish and implement policies and procedures to formally document the recertification of FFMS
   user privileges. This process should include a method to document user recertification and a process
   to maintain evidence of the reviews.
•	 Finalize, approve, and implement the draft FFMS audit log policy and procedures.
•	 Ensure implementation of the ICE Exit Clearance Directive which will establish the process for
   separating employees, both Federal and contractors, and formalize a process to ensure that separating
   employees have their access to all ICE information technology systems removed.
•	 As of July 2010, FFMS was moved from the OCS to Clarksville Data Center (DC2). Therefore, we
   recommend that the Clarksville Data Center (DC2) be reviewed and monitored to ensure compliance
   with all physical and data security requirements.
•	 Ensure that re-entry procedures are properly documented at the Clarksville Data Center (DC2) and
   that servers are not inappropriately identified.
•	 Ensure that the HVAC, fire extinguishers, and UPS environmental systems are tested annually and the
   results are documented and maintained.

For Security Management
•	 Establish and implement a policy which governs the exit clearance process and identifies the
   procedures that separating employees and contractors must take to ensure the return and\or
   safeguarding of government property, equipment, and systems; and the roles and responsibilities of
   ICE offices involved in the exit clearance process.
•	 OCIO provide management oversight and guidance for training personnel with significant
   responsibilities for information security.
•	 Continue prioritizing security awareness and social engineering risks in the Annual Information
   Assurance Awareness Training (IAAT).

For Segregation of Duties
•	 Enforce policies and procedures to ensure that assigned roles and responsibilities are commensurate
   with personnel job functions.




               Information Technology Management Letter for the ICE Component 
 

                         of the FY 2010 DHS Financial Statement Audit 
 

                                           Page 5 
 

                                Department of Homeland Security
 

                             Immigration and Customs Enforcement 
 

                            Information Technology Management Letter
                                       September 30, 2010



                                   APPLICATION CONTROLS
As a result of the control deficiencies noted above in the Information Technology General Controls,
manual compensating controls were tested in place of application controls.

                   MANAGEMENT’S COMMENTS AND OIG RESPONSE
The OIG received written comments on a draft of this report from ICE management. Generally, ICE
management agreed with all of our findings and recommendations. ICE management has developed a
remediation plan to address these findings and recommendations. A copy of the comments is included in
Appendix D.

OIG Response
We agree with the steps that ICE management is taking to satisfy these recommendations.




                Information Technology Management Letter for the ICE Component 
 

                          of the FY 2010 DHS Financial Statement Audit 
 

                                            Page 6 
 

                                                                         Appendix A
                      Department of Homeland Security
 

                   Immigration and Customs Enforcement 
 

                  Information Technology Management Letter
                             September 30, 2010




                               Appendix A


Description of Key ICE Financial Systems and IT Infrastructure
within the Scope of the FY 2010 DHS Financial Statement Audit




        Information Technology Management Letter for the ICE Component 
 

                  of the FY 2010 DHS Financial Statement Audit 
 

                                    Page 7 
 

                                                                                             Appendix A
                                 Department of Homeland Security
 

                              Immigration and Customs Enforcement 
 

                             Information Technology Management Letter
                                        September 30, 2010




Federal Financial Management System (FFMS)
The FFMS is a Chief Financial Officer (CFO) designated financial system and certified software
application that conforms to OMB Circular A-127 and implements the use of a Standard General Ledger
for the accounting of agency financial transactions. It is used to create and maintain a record of each
allocation, commitment, obligation, travel advance and accounts receivable issued. It is the system of
record for the agency and supports all internal and external reporting requirements. FFMS is a
commercial off-the-shelf financial reporting system and is built on Oracle 9i Relational Database
Management System running off an IBM 9672 Mainframe with ZOS 1.4 platform. The FFMS operating
system operates off an IBM ZOS, Version 1.4 Mainframe Server and Microsoft Windows 2000 report
servers protected by firewalls. It includes the core system used by accountants, FFMS Desktop that is
used by average users, and a National Finance Center (NFC) payroll interface. As of July 2010, the
FFMS mainframe component and two network servers are hosted at the Department of Homeland
Security (DHS) Clarksville Data Center (DC2) facility located in Clarksville, Virginia. Prior to July, the
system was housed at Department of Commerce located in Springfield, VA. FFMS currently interfaces
with the following systems:
•	 Direct Connect for transmission of DHS payments to Treasury
•	 Fed Travel
•	 The Biweekly Examination Analysis Reporting (BEAR) and Controlling Accounting Data Inquiry
   (CADI), for the purpose of processing National Finance Center (NFC) user account and payroll
   information.
•	 The Debt Collection System (DCOS)
•          Bond Management Information System (BMIS) Web

ICE Network
The ICE Network, also known as the Active Directory/Exchange (ADEX) E-mail System, is a major
application for ICE and other DHS components, such as the United States Citizenship and Immigration
Services (USCIS). The ADEX servers and infrastructure for the headquarters and National Capital Area
are located on the third floor of the Potomac Center North Tower in Washington, DC. The ICE Network
utilizes a hybrid mesh/hub and mesh network design to maximize redundancy throughout the network.
ICE operates off of Dell PowerEdge 2950, HP ProLiant DL 385 Server, HP ProLiant BL45p Server
Blade, HP BL 25P Blade Server, and EMC Symmetrix DM. ADEX has implemented Microsoft
Windows 2003 Enterprise Server operating system to provide directory, domain control, and network
services to clients. For security purposes, ADEX has implemented firewalls and a logical Layer-3
encrypted overlay network through the use of Generic Routing Encapsulation (GRE) and IPSec tunneling.
ADEX currently interfaces with the following systems:
•	 Diplomatic Telecommunications Service Program Office (DTSPO) ICENet Infrastructure




                Information Technology Management Letter for the ICE Component 
 

                          of the FY 2010 DHS Financial Statement Audit 
 

                                            Page 8 
 

                                                                       Appendix B
                    Department of Homeland Security
 

                 Immigration and Customs Enforcement 
 

                Information Technology Management Letter
                           September 30, 2010




                             Appendix B 
 

FY 2010 Notices of IT Findings and Recommendations at ICE 
 





      Information Technology Management Letter for the ICE Component 
 

                of the FY 2010 DHS Financial Statement Audit 
 

                                  Page 9 
 

                                                                                           Appendix B
                                   Department of Homeland Security
 

                                Immigration and Customs Enforcement 
 

                               Information Technology Management Letter
                                          September 30, 2010


Notice of Findings and Recommendations (NFR) – Definition of Severity Ratings:

Each NFR listed in Appendix B is assigned a severity rating from 1 to 3 indicating the influence on the
Department of Homeland Security (DHS) Consolidated Independent Auditors’ Report.

      1 – Not substantial 

      2 – Less significant 

      3 – More significant 


The severity ratings indicate the degree to which the deficiency influenced the determination of severity
for consolidated reporting purposes.

These rating are provided only to assist the DHS in prioritizing the development of its corrective action
plans for remediation of the deficiency.




                Information Technology Management Letter for the ICE Component 
 

                          of the FY 2010 DHS Financial Statement Audit 
 

                                            Page 10 
 

                                                                                                                                    Appendix B
                                                  Department of Homeland Security
                                               Immigration and Customs Enforcement
                                              Information Technology Management Letter
                                                         September 30, 2010

                                         Notice of Findings and Recommendations – Detail


 NFR                                                                                                                        New     Repeat   Severity
                                Condition                                            Recommendation
 No.                                                                                                                        Issue    Issue    Rating
ICE-IT-   During the FY 2009 financial statement audit, KPMG          ICE should establish and implement a policy                                3
 10-01    performed an inspection of a sample of personnel that       governing the exit clearance process, identifying
          had terminated/transferred from their employment            the procedures separating employees and
          with ICE during the fiscal year. KPMG requested             contractors must take to ensure the return and\or
          evidence that exit clearance forms were completed for       safeguarding of government property, equipment,         X
          each employee to determine ICE management’s                 and systems; and the roles and responsibilities of
          compliance with exit clearance procedures. Of the 25        ICE offices involved in the exit clearance process.
          terminated/transferred ICE personnel sampled,
          evidence of compliance with exit clearance procedures
          could not be provided for 12 employees.

          During the FY 2010 financial statement audit, KPMG
          was informed that a policy and procedure has not been
          developed for the Personnel Exiting Process. ICE
          management stated that the Office of Human Capital
          (OHC) has implemented a multi-year mission action
          plan to address this and various other issues, but there
          has been no corrective action taken at this time.

ICE-IT-   During the FY 2009 audit, KPMG inquired of ICE              ICE should update the FFMS password                                        3
 10-02    OCIO personnel about FFMS password settings. We             configuration settings to ensure that they are in
          determined that the FFMS password settings require          compliance with DHS 4300A policies.
          the use of an underscore and does not allow the use of
          any other special characters such as !, @, #, $, %, or *,                                                           X
          which is not compliant with DHS policy. The DHS
          policy requires that passwords contain a combination
          of alphabetic, numeric, and special characters.

          During the FY 2010 audit, we performed follow-up
          inquiry to determine the status of this weakness and

                                Information Technology Management Letter for the ICE Component                      


                                          of the FY 2010 DHS Financial Statement Audit
                                                                                                      





                                                            Page 11
                                                                               

                                                                                                                                 Appendix B
                                                Department of Homeland Security
                                             Immigration and Customs Enforcement
                                            Information Technology Management Letter
                                                       September 30, 2010

 NFR                                                                                                                     New     Repeat   Severity
                               Condition                                          Recommendation
 No.                                                                                                                     Issue    Issue    Rating
          learned that the FFMS password setting control
          weakness has not been remediated. ICE management
          stated that a change to the system has been requested
          to include two additional characters in the password
          complexity. The special characters that will be added
          once the change is implemented are the #, $, and
          underscore. KPMG noted that Oracle uses the
          following characters (!, @, %, ^, &, *) as function
          key, therefore, they cannot be included in the
          password complexity. The remediation completion
          date is scheduled for November 2010.

ICE-IT-   During the FY 2009 audit, KPMG inquired of ICE           ICE management should establish and implement                              2
 10-03    OCIO personnel about the process for recertifying        policies and procedures to formally document the
          FFMS user access (review of access privileges) and       recertification of FFMS user privileges. This
          found that this process is not formally documented.      activity is the responsibility of OFM and the ISSO.
          Furthermore, KPMG found that the review for the          This process should include a method to document        X
          access privileges for each FFMS account is not           user recertification and a process to maintain
          adequately recorded and no audit trail is available to   evidence of the reviews.
          support that a recertification was completed.

          During the FY 2010 financial statement audit, we
          performed follow-up inquiry to determine the status of
          this weakness and learned that procedures have been
          documented and implemented for the FFMS
          recertification process, however, a formal policy has
          not been documented. KPMG found that users’ logical
          access privileges were reviewed, recorded, and
          maintained, therefore this portion of the PY NFR as
          been remediated. However, per inquiry with ICE
          management KPMG found that a formal policy still
          does not exist for the recertification of FFMS
          accounts.

                              Information Technology Management Letter for the ICE Component                    


                                        of the FY 2010 DHS Financial Statement Audit
                                                                                                  





                                                          Page 12
                                                                           

                                                                                                                                  Appendix B
                                                 Department of Homeland Security
                                              Immigration and Customs Enforcement
                                             Information Technology Management Letter
                                                        September 30, 2010

 NFR                                                                                                                      New     Repeat   Severity
                               Condition                                           Recommendation
 No.                                                                                                                      Issue    Issue    Rating
ICE-IT-   During the FY 2009 financial statement audit, KPMG        ICE should enforce policies and procedures to                              3
 10-04    performed an inspection of a listing of FFMS users        ensure that assigned roles and responsibilities are
          and their assigned roles/responsibilities and             commensurate with personnel job functions.
          determined that 6 users had Originator, Funds
          Certification Official, and Approving Official profiles                                                           X
          that were in violation of FFMS segregation of duties
          policies.

          During the FY 2010 financial statement audit, we
          performed follow-up inquiry to determine the status of
          this weakness and learned that draft FFMS segregation
          of duty policy is in place, but, is not being followed.
          In addition, KPMG inspected a listing of FFMS users
          and their assigned roles/responsibilities and
          determined that one user had Originator, Funds
          Certification Official, and a Approving Official
          profile, which is a violation of the FFMS segregation
          of duties policy.

ICE-IT-   During the FY 2010 financial statement audit, KPMG        ICE OFM will finalize, seek approval, and              X                   3
 10-05    determined that FFMS audit logs were not generated        formally implement the draft policy and
          or reviewed during the period October 2009 through        procedures. In the meantime, the draft policy will
          February 2010. As of March 2010, the logs were            be used to provide an accurate audit log.
          generated and reviewed, however, no supporting
          evidence could be provided. Additionally, we
          determined that audit log policy and procedures have
          been drafted; however, they have not been finalized,
          approved, and implemented.

ICE-IT-   During the FY 2009 financial statement audit, KPMG        Ensure implementation of the ICE Exit Clearance                            3
 10-06    determined that weaknesses exist over ADEX access.        Directive which will establish the process for
          Specifically, KPMG found that 14 users, which were        separating employees, both Federal and
          separated from ICE, still had active ADEX accounts        contractors, and formalize a process to ensure that
          that were not removed upon their termination/transfer.    separating employees have their access to all ICE       X
                               Information Technology Management Letter for the ICE Component                    


                                         of the FY 2010 DHS Financial Statement Audit
                                                                                                   





                                                           Page 13
                                                                            

                                                                                                                               Appendix B
                                                 Department of Homeland Security
                                              Immigration and Customs Enforcement
                                             Information Technology Management Letter
                                                        September 30, 2010

 NFR                                                                                                                   New     Repeat   Severity
                               Condition                                          Recommendation
 No.                                                                                                                   Issue    Issue    Rating
          During the FY 2010 financial statement audit, we          information technology systems removed.
          performed follow-up inquiry to determine the status of
          this weakness and learned that ICE has implemented a
          compensating control that will disable users account
          after 45 days of inactivity to mitigate the control
          weakness. However, KPMG found that a separated
          employee’s account was not disabled in a timely
          manner as the account was accessed after the
          employee’s termination date. Therefore, the 45-day
          window was inappropriately delayed. In addition, we
          determined that DHS access controls policies are not
          being followed as users are not properly identified and
          authenticated. Based on ICE management’s response
          to this weakness “either another user logged on as the
          terminated user or Information Technology Field
          Officer (ITFO) logged in using the terminated
          employee’s credentials.”

ICE-IT-   During the FY 2010 financial statement audit, KPMG        As of July 2010 FFMS has been moved from the        X                   2
 10-07    determined that several physical and environmental        Department of Commerce OCS to the Clarksville
          controls exist within the OCS Datacenter. Specifically,   Data Center 2 (DC2). DC2 will be reviewed and
          we noted the following:                                   monitored to ensure compliance with all physical
          • OCS Data Center Risk Assessment is not                  and data security requirements.
              documented.
          • Re-entry procedures for personnel after an
              emergency evacuation are not documented.
          • Fire suppression testing documentation is not
              maintained.
          • Water damage was visible on the data center wall
              where FFMS servers are housed with no incident
              report of the event.
          • UPS testing documentation is not maintained.


                               Information Technology Management Letter for the ICE Component                 


                                         of the FY 2010 DHS Financial Statement Audit
                                                                                                 





                                                           Page 14
                                                                            

                                                                                                                               Appendix B
                                                 Department of Homeland Security
                                              Immigration and Customs Enforcement
                                             Information Technology Management Letter
                                                        September 30, 2010

 NFR                                                                                                                   New     Repeat   Severity
                               Condition                                           Recommendation
 No.                                                                                                                   Issue    Issue    Rating
ICE-IT-   During the FY 2010 financial statement audit, we          Ensure that environmental systems (HVAC, fire       X                   2
 10-08    determined that the environmental controls in the PCN     extinguishers, and UPS) are tested annually with
          computer room need improvement. Specifically, we          test results made available for review.
          found that environmental test results are not
          documented and maintained for the following devices:
          AC units, fire extinguishers, and back-up power
          supply.
ICE-IT-   Social engineering is defined as the act of attempting    Social Engineering is covered in the Annual                             3
 10-09    to manipulate or deceive people into taking action that   Information Assurance Awareness Training
          is inconsistent with DHS policies, such as divulging      (IAAT) – which is a requirement for all ICE
          sensitive information or allowing/enabling computer       employees. The IAAT should continue to stress
          system access. The term typically applies to trickery     social engineering risks and greater outreach        X
          or deception for the purpose of information gathering,    should be achieved.
          or computer system access.

          During the course of our social engineering test work,
          the objective was primarily focused on attempting to
          identify user IDs and passwords. Posing as DHS
          technical support employees, attempts were made to
          obtain this type of account information by contacting
          randomly selected employees by telephone. A script
          was used to ask for assistance from the ICE user in
          resolving a network issue in the component. For each
          person we attempted to call, we noted whether the
          individual was reached and whether we obtained any
          information from them that should not have been
          shared with us according to DHS policy. Our
          selection of desks and offices was not statistically
          derived, and therefore we are unable to project results
          to the component or department as a whole.

          During the FY 2010 financial statement audit, we
          learned that ICE continues to promote security
          awareness training by distributing a weekly newsletter
                               Information Technology Management Letter for the ICE Component                    


                                         of the FY 2010 DHS Financial Statement Audit
                                                                                                   





                                                           Page 15
                                                                            

                                                                                                                            Appendix B
                                                 Department of Homeland Security
                                              Immigration and Customs Enforcement
                                             Information Technology Management Letter
                                                        September 30, 2010

 NFR                                                                                                                New     Repeat   Severity
                               Condition                                          Recommendation
 No.                                                                                                                Issue    Issue    Rating
          to employees and contractors about security
          awareness. However, KPMG found that the prior year
          security weakness still exists.
ICE-IT-   We performed after-hours physical security testing to     Security Awareness is covered in the Annual      X                   3
 10-10    identify risks related to non-technical aspects of IT     IAAT – which is a requirement for all ICE
          security. These non-technical IT security aspects         employees. The IAAT should continue to stress
          include physical access to equipment that houses          security awareness risks and greater outreach
          financial data and information residing on an ICE         should be achieved.
          employee’s desk which could be used by others to
          inappropriately access financial information. The
          testing was performed at various ICE locations that
          process and/or maintain component financial data.
          After gaining access to the facilities via an ICE
          employee designated to assist with and monitor our
          testwork, we inspected a random selection of desks
          and offices looking for items such as improper
          protection of system user names and passwords,
          unsecured       information      system      hardware,
          documentation containing Personally Identifiable
          Information (PII) or marked “For Official Use Only”
          (FOUO), and unlocked network sessions.
                                                           Our
          selection of desks and offices was not statistically
          derived, and therefore we are unable to project results
          to the component or department as a whole. For each
          location visited, we noted the type of unsecured
          information or property we identified and included the
          total exceptions noted by location, as well as by type
          of information or property identified.

          During the FY 2010 financial statement audit, we
          learned that ICE continues to promote security
          awareness training and distributes a weekly newsletter
          to employees and contractors about security
          awareness. However, KPMG found that security
                               Information Technology Management Letter for the ICE Component                 


                                         of the FY 2010 DHS Financial Statement Audit
                                                                                                 





                                                           Page 16
                                                                            

                                                                                                                                   Appendix B
                                                  Department of Homeland Security
                                               Immigration and Customs Enforcement
                                              Information Technology Management Letter
                                                         September 30, 2010

 NFR                                                                                                                       New     Repeat   Severity
                                Condition                                           Recommendation
 No.                                                                                                                       Issue    Issue    Rating
          weaknesses still exist.
ICE-IT-   In FY 2009, we found that ICE lacked policies and           OCIO will provide management oversight and                                2
 10-11    procedures requiring completion of a training program       guidance for training personnel with significant
          by personnel in IT security positions.                      responsibilities for information security.

          During the FY 2010 financial statement audit, we                                                                   X
          learned that to correct the prior year NFR, ICE follows
          DHS 4300A policy for training personnel in IT
          security positions, therefore, this portion of the NFR is
          closed. However, during our testwork we determined
          that weaknesses still exist over training personnel in
          IT security positions. Specifically, we determined that
          27 out of 45 IT security personnel have not completed
          specialized training.
ICE-IT-   During the FY 2010 financial statement audit, KPMG          ICE should ensure that re-entry procedures are        X                   2
 10-12    determined that physical safeguard weaknesses exist at      properly documented at the Clarksville Data
          the Clarksville Data Center (DC2). Specifically, we         Center (DC2) and make certain that servers are not
          determined the following:                                   inappropriately identified.
          • Re-entry procedures after an emergency have
               been implemented, however, the procedures are
               not documented.
          • FFMS server is inappropriately marked with a
               label that identifies the application/data on the
               server.
ICE-IT-   During KPMG’s internal vulnerability assessment             ICE should take the necessary steps to begin          X                   3
 10-13    efforts of ICE’s FFMS network, servers and databases        examining the default configuration installations
          performed in August 2010, KPMG identified several           and system services installed on FFMS devices
          High/ Medium Risk vulnerabilities, related to               and determine if the default configurations can be
          configuration management such as:                           set to increase FFMS’s security or, in the case of
          • Hot Standby Router Protocol (HSRP) default                unnecessary system services, deleted to reduce
               installation on Cisco routers and switches             FFMS vulnerability to attack.
          • Default “Oracle Listener Program (tnslsnr)”
               service password on server installation

                                Information Technology Management Letter for the ICE Component                    


                                          of the FY 2010 DHS Financial Statement Audit
                                                                                                     





                                                            Page 17
                                                                              

                                                                                                                           Appendix B
                                               Department of Homeland Security
                                            Immigration and Customs Enforcement
                                           Information Technology Management Letter
                                                      September 30, 2010

 NFR                                                                                                               New     Repeat   Severity
                              Condition                                        Recommendation
 No.                                                                                                               Issue    Issue    Rating
          •   Outdated Microsoft Operating Systems
          •   Bonjour (also known as ZeroConf or mDNS)
              listening protocol
          • Remote web server HTML form fields transmits
              data in clear text
ICE-IT-   During KPMG’s internal vulnerability assessment         ICE should take the necessary steps to begin      X                   3
 10-14    efforts of ICE’s FFMS network servers and databases     applying the appropriate FFMS database patches
          performed in August 2010, KPMG identified several       to ensure patch compliance.
          High/ Medium Risk vulnerabilities, related to several
          configuration and patch management weaknesses
          within the configuration of the FFMS ICE and United
          State Citizenship and Immigration Service (USCIS)
          Oracle database instances such as:
          • Clear text passwords stored in database
          • Outdated patches
          • Table security configurations
          • User account privileges
          • Password settings for users and database

ICE-IT-   During KPMG’s internal vulnerability assessment         ICE should take the necessary steps to begin      X                   3
 10-15    efforts of ICE’s FFMS network servers and databases     applying the appropriate FFMS patches to the
          performed in August 2010, KPMG identified several       FFMS network servers and databases to ensure
          High/ Medium Risk vulnerabilities, related to missing   patch compliance.
          or inadequate patches such as:
          • Microsoft Patches
          • Adobe Reader
          • Apache Tomcat
          • Java Runtime Environment (JRE)
          • Oracle Database (server installation)
          • HP System Management
          • Internet Explorer

                              Information Technology Management Letter for the ICE Component              


                                        of the FY 2010 DHS Financial Statement Audit
                                                                                              





                                                          Page 18
                                                                         

                                                                                                                         Appendix B
                                              Department of Homeland Security
                                           Immigration and Customs Enforcement
                                          Information Technology Management Letter
                                                     September 30, 2010

 NFR                                                                                                             New     Repeat   Severity
                              Condition                                      Recommendation
 No.                                                                                                             Issue    Issue    Rating
          •   MySQL database

ICE-IT-   During KPMG’s internal vulnerability assessment       ICE should ensure that password configuration     X                   3
 10-16    efforts of ICE’s ADEX network servers and devices     settings are properly and effectively applied.
          performed in August 2010, KPMG identified a default
          installation and configurations for the Hot Standby
          Router Protocol (HSRP) on the Cisco routers.




                             Information Technology Management Letter for the ICE Component             


                                       of the FY 2010 DHS Financial Statement Audit
                                                                                            





                                                         Page 19
                                                                       

                                                                              Appendix C
                       Department of Homeland Security
 

                    Immigration and Customs Enforcement 
 

                   Information Technology Management Letter
                              September 30, 2010




                                Appendix C 
 


Status of Prior Year Notices of Findings and Recommendations and 
 

                          Comparison to 
 

 Current Year Notices of Findings and Recommendations at ICE 
 





         Information Technology Management Letter for the ICE Component 
 

                   of the FY 2010 DHS Financial Statement Audit 
 

                                     Page 20 
 

                                                                                              Appendix C
                                Department of Homeland Security
                             Immigration and Customs Enforcement
                            Information Technology Management Letter
                                       September 30, 2010


                                                                                         Disposition
 NFR No.                                 Description                               Closed         Repeat

ICE-IT-09-11   Ineffective physical security controls at facility entrances          X
ICE-IT-09-12   Ineffective/non-compliant account lockout counter settings            X
ICE-IT-09-13   Ineffective password settings in FFMS                                               10-02
ICE-IT-09-14   Ineffective ADEX user access recertification process                  X
ICE-IT-09-15   Ineffective FFMS access recertification process                                     10-03
ICE-IT-09-16   Terminated/transferred personnel are not removed from ADEX
               in a timely manner                                                                  10-06
ICE-IT-09-17   Segregation of duty policies are not enforced in FFMS                               10-04
ICE-IT-09-18   Background reinvestigations are not conducted in a timely
                                                                                     X
               manner for contractors
ICE-IT-09-19   Procedures for transferred/terminated personnel exit processing
                                                                                     X             10-01
               are not allowed
ICE-IT-09-20   Training for IT security personnel is not mandatory                                 10-11
ICE-IT-09-21   Vulnerability Assessment - Network devices were installed with                      10-13
               default configuration settings and protocols; inadequate patches;                  through
               and weak/ generic passwords                                                         10-16
ICE-IT-09-22   Physical Security and Security Awareness Issues Identified
                                                                                                   10-09
               during Enhanced Security Testing
ICE-IT-09-23   IT Security Awareness Training requirements are not enforced          X




               Information Technology Management Letter for the ICE Component 
 

                         of the FY 2010 DHS Financial Statement Audit 
 

                                           Page 21 
 

                                                                                            Appendix D
                              Department of Homeland Security 

                           Immigration and Customs Enforcement 

                          Information Technology Management Letter
                                     September 30, 2010


                                                                ~~:i;"''''''C           If....
                                                                 ...... :puo. ex: 2m~




                                     February 14,2011



MEMORANDUM FOR.;             Frank Deffer
                             Assistant Inspector GeneraJ
                             Infonnation Technology Audits


                             Radha C. Sekar
                             Chief Financial O'ffi<.,../
                           • U.S. lmmigration and Customs Enforcement

                             Response to Draft Report: "lnjormaJion Technology MaMgernenJ
                             Letter/or the Immigration and Customs En/orcemenl ComponenJ
                             o/the FY 2010 DHS Financial SlatemUJI A.udit"



Thank you for the opportunity to comment on the above subject dnlft report, dated February 3,
2011.

ICE coocws with all 16 recommendations contained in the draft report. Plans of Action and
Milestones (POAMs) have been created in Trusted Agent FISMA (fAF) for all
recommendations. We have successfully completed n:mediation on 10 of the recommendations
and mitigation efforts continue on the remaining 6.

Should you have any questions or concerns, please contact Lois Jarvis, Deputy Director for the
ICE CFO Office of Assurance and Compliance at (202) 732·6240 or bye-mail at
Lojs,JaryjslQ)dhs.lZov.




              Information Technology Management Letter for the ICE Component 
 

                        of the FY 2010 DHS Financial Statement Audit 
 

                                          Page 22 
 

              Department of Homeland Security
 

           Immigration and Customs Enforcement 
 

          Information Technology Management Letter
                     September 30, 2010


     Report Distribution

     Department of Homeland Security

     Secretary
     Deputy Secretary
     General Counsel
     Chief of Staff
     Deputy Chief of Staff
     Executive Secretariat
     Under Secretary, Management
     Assistant Secretary, ICE
     DHS Chief Information Officer
     DHS Chief Financial Officer
     Chief Financial Officer, ICE
     Chief Information Officer, ICE
     Chief Information Security Officer
     Assistant Secretary for Office of Policy
     Assistant Secretary for Office of Public Affairs
     Assistant Secretary for Office of Legislative Affairs
     DHS GAO OIG Audit Liaison
     Chief Information Officer, Audit Liaison
     ICE Audit Liaison

     Office of Management and Budget

     Chief, Homeland Security Branch
     DHS OIG Budget Examiner

     Congress

     Congressional Oversight and Appropriations Committees, as appropriate




Information Technology Management Letter for the ICE Component 
 

          of the FY 2010 DHS Financial Statement Audit 
 

                            Page 23 
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
